              Effectiveness of the RRA Quality Assurance Program in

                    Estimating Exposure to Improper Payments

                         Report No. 03-01, October 9, 2002



                                EXECUTIVE SUMMARY



This report presents the results of the Office of Inspector General’s evaluation of the
effectiveness of the Railroad Retirement Board (RRB) in estimating the agency’s
exposure to improper payments in Railroad Retirement Act (RRA) programs.

The President’s Management Agenda, Fiscal Year 2002 includes a government-wide
initiative for improved financial performance through the reduction of improper
payments. The General Accounting Office has identified the systematic measurement
of the extent of improper payments as a key step in addressing the problem. Absent
such measurement, management cannot determine whether improper payments are
significant enough to require corrective action, how much to cost-effectively invest in
internal control systems to correct the problem, or the impact of the actions already
taken to reduce improper payments.

The Office of Programs does not presently develop a comprehensive estimate of the
monetary impact of improper payments. The agency has used the Office of Programs’
annual studies of initial and post adjudication accuracy to report on the cost of improper
payments since it was first required in FY 2001. The study methodology, developed
nearly 15 years ago, responds to the question of adjudication accuracy within a very
narrowly defined framework that does not adequately support the information needs
associated with the initiative to reduce improper payments in Federal programs.

Our review of the methodology used to estimate RRA initial case and payment accuracy
disclosed some weaknesses in the documentation, design and execution of the study.

•	 Key aspects of the study, such as the determination of sample size, the method of
   sample selection, and the formulae used to project case and payment accuracy, are
   not adequately documented. In addition, the treatment of certain types of errors is
   not entirely consistent with the study’s published definitions.

•	 Study results are published without a final accuracy assessment for every case in
   the sample. Cases for which an accuracy decision could not be confirmed within the
   timeframe allotted for the study are treated as “correct cases” in the computation of
   case and payment accuracy rates.

•	 An error in sample design that resulted in misstatement of the FY 2001 payment
   accuracy projection was caused by a lack of statistical expertise among responsible
   staff.




                                             i

•	 The study includes constructive awards that, because they always result in a zero
   payment amount, never meet the established criteria for a material error. The
   inclusion of cases that can never be associated with a measurable error tends to
   undermine the credibility of the assessment methodology.

We also observed that the annual study of initial case and payment accuracy could be
more informative. The study’s value as a risk assessment tool could be enhanced by
expanding the study’s scope to measure the monetary impact of three types of errors
that are currently excluded from the computation of case and payment accuracy.

Finally, we have presented some observations about the effect of sample size on the
usefulness and comparability of the estimates and projections produced by the annual
studies of initial case and payment accuracy.

The OIG has recommended that the Office of Programs:

   •	 develop a comprehensive methodology for estimating the frequency and
      monetary impact of improper payments;

   •	 address weaknesses in the current methodology for assessing initial case and
      payment accuracy;

   •   provide training in applied statistics to responsible staff; and

   •	 consider developing a methodology to measure the monetary impact of certain
      errors that are identified during the review process but do not meet the current
      study criteria for error measurement.

Management generally agrees with the findings and recommendations presented in the
report. The full text of their response is included as Appendix V.




                                             ii

                                   TABLE OF CONTENTS




EXECUTIVE SUMMARY                                                             i

INTRODUCTION


 Background                                                                   1



 Objective, Scope and Methodology                                             2


RESULTS OF REVIEW


 The RRB Needs to Develop a Comprehensive Estimate of Improper Payments       3



 Assessment Methodology Is Not Fully Documented
                              5



 Study Data Is Incomplete
                                                    6



 Lack of Statistical Expertise Leads to Errors
                               7



 The Inclusion of Constructive Awards Is Problematic
                         9



 The Study Could Be More Informative
                                        10

 Errors Corrected Prior to Review
                                           10

 Errors in Temporary Work Deductions
                                        11

 Non-Recurring Errors
                                                       11


 Precision Levels May Not Be Adequate
                                       12

 Payment Accuracy
                                                           13

 Case Accuracy
                                                              13


APPENDICES
 Appendix I Study of Initial Case and Payment Accuracy: Background
          15

 Appendix II Study of Initial Case and Payment Accuracy: Error Categories
   17

 Appendix III Selected Case and Payment Accuracy Statistics
                 19

 Appendix IV Case Accuracy Estimates FY 1996- 2001
                          20





                                               iii

                                     INTRODUCTION


This report presents the results of the Office of Inspector General’s (OIG) evaluation of
the effectiveness of the Railroad Retirement Board’s (RRB) quality assurance program
in estimating the agency’s exposure to improper payments in Railroad Retirement Act
(RRA) programs.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the health and welfare provisions of the RRA which provide
retirement-survivor benefits for eligible railroad employees, their spouses, widows and
other survivors. During fiscal year (FY) 2001, approximately 700,000 annuitants
received benefits totaling $8.5 billion under the RRA.

The RRB also administers the Railroad Unemployment Insurance Act (RUIA) which
provides unemployment and sickness insurance to workers in the rail industry. During
FY 2001, the RRB paid $94.4 million to the 18,000 individuals qualifying for
unemployment benefits and the 24,000 individuals qualifying for sickness benefits under
the RUIA.

The President’s Management Agenda, Fiscal Year 2002 includes a government-wide
initiative for improved financial performance through the reduction of improper
payments. Under this initiative, the administration will establish a baseline for
erroneous payments and require agencies to include, in their fiscal year 2003 budget
submissions, information on erroneous payment rates, including actual and target rates,
where available. Using this information, the Office of Management and Budget (OMB)
will work with agencies to establish goals to reduce erroneous payments for each
program.

In October 2001, the General Accounting Office (GAO) published “Strategies to Manage
Improper Payments,” in which they identified best practices in combating improper
payments.1 In that report, the GAO observed that “without a systematic measurement
of the extent of the problem, agency management cannot determine:

    1. if the problem is significant enough to require corrective action,
    2.	 how much to cost-effectively invest in internal control systems to correct the
        problem, or
    3.	 the impact of the actions already taken to reduce improper payments or
        additional corrective actions needed.”




1
GAO-02-69G



                                             1

OMB now requires disclosure of information about improper payments in agency budget
submissions. The Office of Programs performs annual studies of RRA case and
payment accuracy which currently provide the basis for the RRB’s estimates of
improper payments.


Objective, Scope and Methodology

The objective of this review was to evaluate the effectiveness of the RRB’s quality
assurance process in providing an estimate of improper payments resulting from the
adjudication of initial applications for RRA benefits. In order to achieve this objective,
we:
   •	 reviewed the assessment methodology for published studies of initial case and
      payment accuracy for Employee Age and Service, Spouse, and Widow/Widower
      awards processed during FY 1996 through FY 2001;
   •   reviewed policies and procedures;
   •   reviewed documentation supporting the sampling methodology;
   •   interviewed responsible management and staff; and
   •	 examined the documentation for selected individual cases in order to test the
      classification of errors identified during the FY 2001 quality assurance review.

The scope of this review did not include tests of the accuracy of individual case
determinations. Accordingly, we did not test the individual case assessments made by
the claims adjudication specialists in the Office of Programs.

This audit was conducted in accordance with generally accepted government auditing
standards as applicable to the audit objectives. Fieldwork was conducted at RRB
headquarters during May through July 2002.




                                              2

                                   RESULTS OF REVIEW


The Office of Programs does not presently develop a comprehensive estimate of the
monetary impact of improper payments. The RRB has used the Office of Programs’
annual studies of initial and post adjudication accuracy when reporting to OMB on the
cost of improper payments since it was first required in FY 2001. However, these
studies are not an adequate long-term solution to the information needs associated with
the President’s national initiative to reduce improper payments.

We also performed a detailed review of the agency’s annual study of RRA initial case
and payment accuracy. Our examination disclosed that:

   •   study data is incomplete;
   •   the assessment methodology is not fully documented;
   •   a lack of statistical expertise leads to errors; and
   •   the treatment of constructive awards is problematic.

We also noted several instances in which the assessment methodology could be
modified to offer additional information about the frequency and monetary impact of
improper payments. In addition, we have presented our findings concerning the impact
of sample size on study precision.

Management generally agrees with the findings and recommendations presented in this
report. The full text of their response is included as Appendix V.


RRB Needs to Develop a Comprehensive Estimate of Improper Payments

The RRB has not developed a comprehensive estimate of its exposure to loss from
improper payments in the RRA benefit programs.

The GAO has stated that strong systems of internal control provide reasonable
assurance that programs are operating as intended and are achieving expected
outcomes. A key step in the process of gaining this assurance is conducting a risk
assessment to identify and estimate the magnitude of improper payments.
According to the GAO, improper payments include:

   •   errors such as duplicate payments and miscalculations;
   •   unsupported or inadequately supported claims;
   •   payments to ineligible beneficiaries; and
   •   payments resulting from fraud and abuse.

In its FY 2003 budget submission to OMB, the RRB reported on the magnitude of
erroneous payments using data from its two major annual quality assurance studies:


                                              3

RRA initial applications and RRA post adjudication actions. 2,3 These studies estimated
the agency’s maximum financial exposure from claims adjudication errors at under $1.1
million during FY 2000.4 However, claims processing errors typically account for less
than 3% of the approximately $50 million in RRA overpayments identified annually.

These two studies do not offer a comprehensive estimate of the magnitude of improper
payments because the quality assurance process was not designed to do so. The
present assessment methodology, developed nearly 15 years ago by non-statisticians,
was first created to respond to the question of accuracy within a very narrowly defined
framework. That framework deliberately omits some payment categories from the
assessment and excludes some errors from the computation of accuracy rates.

The current assessment methodology focuses on benefits paid to former railroad
employees, their spouses, widows and widowers. These beneficiary groups were of
primary interest to management at the time the formal quality assurance process was
established because they represent the majority of the Office of Programs workload. In
FY 2001, decisions on initial applications for employee, spouse and widow/widower
benefits comprised approximately 75% of all initial decisions.

These studies do not offer information about other, smaller workloads such as children,
widowed mothers and fathers with children in their care or lump sum death benefits. In
addition, the two major studies do not measure the agency’s exposure to fraud in RRA
programs.

As a result, the RRB cannot rely on its assessments of initial and post adjudication
accuracy as a basis for responding to the national initiative to reduce improper
payments.

Recommendation

We recommend that the Office of Programs develop a comprehensive methodology for
estimating the number and monetary impact of improper payments (Recommendation
#1).

Management’s Response

The Office of Programs agrees in principle. However, citing limited resources and
expertise, they have asked for the OIG’s assistance in developing the recommended
methodology.


2
  The agency’s presentation disclosed that the estimates were limited to the
claims of employees, spouses, widows and widowers.
3
  The term “post adjudication actions” refers to any adjustment after the

award or denial of benefits.

4
  The FY 2000 estimates were the most recent available at the time that the

agency submitted its FY 2003 budget request in FY 2001.



                                            4

Assessment Methodology Is Not Fully Documented

Key aspects of the methodology used to measure the case and payment accuracy of
initial applications for RRA benefits, such as the determination of sample size, the
method of sample selection, and the formulae used to project case and payment
accuracy, are not fully documented.

In addition, documentation describing the current assessment methodology does not
explain the exclusion of errors corrected after the date of the initial award (but prior to
the quality assurance review) or errors in the computation of temporary work
deductions.5 Based on the published documentation, we would expect these types of
errors to be included in the studies’ scope.

The quality assurance program is an important control activity. As such, it should be
clearly documented and the documentation should be readily available for examination.

The basic assessment methodology is documented in the report that presents the
results of each annual study. However, that document does not address the method
used to determine sample size. The determination of sample size is documented
separately in the Office of Programs’ files. Sample selection procedures have not been
documented and the formulae used to compute accuracy rates, estimate precision and
project payment accuracy are not available for review outside of the electronic database
in which they were programmed.

At the time the study was designed, management did not want to capture data about
errors that would be corrected at a later date. However, this treatment is not entirely
consistent with the study’s published definitions of payment accuracy. That definition,
presented in full in Appendix I, refers to “dollars paid and payable on the annuity
beginning date.”

During our review of the printed results of the payment accuracy projection, we had
observed that some of the numbers did not appear to carry the correct label. We
questioned whether the computation was incorrect or the item had been mislabeled.
The Office of Programs could not respond to the question because the formulae used to
program the calculation had not been documented in their files.

The lack of comprehensive documentation for the assessment methodology
undermines its reliability and credibility.

Recommendation

The Office of Programs should develop comprehensive documentation for all aspects of
its assessment methodology (Recommendation #2).

5
 Work deductions, imposed on individuals as a result of post-retirement

earnings, reduce the amount of benefits payable.



                                              5

Management’s Response

The Office of Programs agrees with the recommendation.


Study Data Is Incomplete

The study of initial case and payment accuracy is published without a final accuracy
assessment for every case in the sample. Cases for which an accuracy decision could
not be confirmed within the timeframe allotted for the study are treated as “correct
cases” in the computation of case and payment accuracy rates.

A properly designed and executed statistical sample will offer an objective, defensible
basis for inferences about the population from which it was drawn. All items selected
for review in a statistical sample should be fully evaluated in order to ensure that the
resulting data provide a valid basis for inferences about the population.

In some circumstances, claims adjudication specialists reviewing sample cases may
need additional information before finalizing their accuracy determination. If that
information cannot be obtained within the timeframe allotted for the study, the case is
classified as a “potential error” and is included in the computation of case and payment
accuracy rates as if it were correct.

If all the items in the sample are not evaluated, the resulting inferences about the
characteristics of the full population may be incorrect. A summary of the number of
pending decisions by fiscal year follows.

Potential Errors Reported FYs 1996 - 2001

                                            Potential Errors Reported

        FY        Sample Size        Number          Percentage of the Sample
      2001           468               15                     3.21%
      2000           367               19                     5.18%
      1999           375               14                     3.73%
      1998           400               24                     6.00%
      1997           611               29                     4.75%
      1996           592               25                     4.22%

The use of the “potential error” classification is fully disclosed in the detailed report of
study findings. However, this treatment sacrifices accuracy for timeliness and
undermines the credibility and comparability of study data.




                                               6

Although many potential errors are ultimately determined to be correct, this is not
always true. In addition, there are considerable delays in obtaining decisions in these
cases. As of September 2002, decisions were still outstanding for 10 of the potential
errors in the FY 2001 study and in some cases dating as far back as FY 1997.

The Office of Programs’ study of post adjudication processing also uses the potential
error classification.

Recommendation

We recommend that the Office of Programs modify the timeframes for its studies of
case and payment accuracy to permit a final decision about the accuracy of all sample
cases prior to publication of the study results (Recommendation #3).

Management’s Response

The Office of Programs will consider approaches to dealing with this recommendation,
and the impact on their annual performance report.


Lack of Statistical Expertise Leads to Errors

During our review of the FY 2001 study of initial payment accuracy, we identified an
error in the sample design that was caused by a lack of statistical expertise among
responsible staff. As a result, the projection of payment accuracy based on the sample
results was misstated.

Management should ensure that skill needs are continually assessed and that the
organization has the skill required to achieve organizational goals.

An agency statistician assists the Office of Programs in determining the size of the
samples used in its accuracy studies. The current assessment methodology calls for
stratified sampling. In stratified sampling, the sample is composed of two or more
“strata” representing the various subgroups in the larger population. The number of
sample items in each stratum is determined through the use of established statistical
methods.

In FY 2001, the recommended sample size was 253 initial awards allocated into three
strata based on type of annuitant: employee, spouse and widow/widower. However, the
Office of Programs increased the number of spouse and widow payments in the sample
in order to enhance the precision of their estimates for those two groups.




                                            7

                        Universe         STRATIFIED RANDOM SAMPLE
                                           As Planned        As Executed
      Employee         11,129   40%           69   27%          69   15%
      Spouse            7,220   26%           71   28%         199   43%
      Widow(er)         9,614   34%         113    45%         200   43%
                      ====== ====        ====== ====         ===== ====
            Total      27,963 100%          253 100%           468 100%

After inclusion of the additional spouse and widow/widower cases, the sample was no
longer a statistically valid model on which to base projections about the population. The
altered sample did not properly conform to the methodology recommended by the
consulting statistician, nor did it conform to another valid stratification method.
Management and staff responsible for the decision to augment the samples did not
understand the impact that the changes would have on the study outcome.

Although projections of overall case accuracy are adjusted for inaccuracies in sample
stratification, payment accuracy projections are not similarly adjusted. Since the
number and monetary impact of errors may vary significantly between the three types of
awards, this type of error can significantly misstate projections.

We have been advised that the sample size used in the FY 2002 study, which is still in
progress, has been similarly augmented.

Recommendations

We recommend that the Office of Programs:

   •	 provide responsible management and staff with additional training in applied
      statistics (Recommendation #4); and
   •	 develop a control to ensure that changes to the assessment methodology are
      made in consultation with individuals who have the knowledge, skill and abilities
      to recognize all potential impacts (Recommendation #5).

Management’s Response

The Office of Programs has agreed to determine a strategy and develop a plan to
provide additional training to responsible management and staff. They will address the
recommendation for a control over changes to the assessment methodology when they
develop comprehensive documentation for the process (see recommendation #2).




                                            8

The Inclusion of Constructive Awards Is Problematic

The inclusion of constructive awards in the annual study of initial case and payment
accuracy is problematic because, under current study parameters, they are always
classified as “correct cases.”

The samples that are evaluated during the assessment process are selected from initial
payment vouchers processed during the year. In some cases, a widow or widower may
become eligible for benefits but their continued employment results in a reduction of
benefits based on the amount of reported earnings (a work deduction). When the work
deductions exceed the amount of benefits payable, the award process results in a
payment voucher with a net payable amount of zero. Such cases are known as
“constructive awards.”

The study parameters measure only the cost of material errors which are defined in
terms of monetary impact on the recurring benefit rate. Because constructive awards,
by definition, do not result in the establishment of a recurring cash payment, errors in
the computation of the benefit amount are never classified as material errors. Error
categories used in reporting study results are defined in Appendix II.

Constructive awards cannot be associated with an error that would impact the estimate
of case or payment accuracy rates. Since constructive awards always have zero
payment amounts, errors in their computation never meet the study’s criteria for a
material error. Only the incorrect processing of a constructive award, in which a
recurring payment was due but none awarded, would be classified as a material error
for purposes of the study.

The rationale for the current treatment of constructive awards is based on strict
application of the established assessment methodology as follows:

      •	 constructive awards must be included in the population of payments subject
         to the review process because a payment voucher documents the outcome of
         the adjudication process; and

      •	 errors in the adjudication of constructive awards must be excluded from the
         accuracy computation because no payment results from the benefit
         computation.

The above rationale is based on the literal application of the established criteria for
identifying the study’s universe and assessing material errors. However, the inclusion
of cases that can never be associated with a material error tends to undermine the
credibility of the assessment methodology.

The unique nature of these cases suggests that it might be more informative to perform
a separate evaluation of constructive awards.




                                            9

Recommendation

The Office of Programs should reassess the treatment of constructive awards in its
evaluations of case and payment accuracy (Recommendation #6).

Management’s Response

The Office of Programs agrees with the recommendation.


The Study Could Be More Informative

The RRB’s study of initial case and payment accuracy could be more informative. The
study’s value as a risk assessment tool could be enhanced by expanding the study’s
scope to measure the monetary impact of three types of errors that are currently
excluded.

The Office of Programs’ study of initial case and payment accuracy for RRA benefit
programs does not measure the occurrence rate or monetary impact of:

   •   errors corrected prior to the quality assurance review; or
   •   errors related to temporary work deductions.

In addition, the projection of the monetary impact of payment errors does not include the
cost of non-recurring errors.

The GAO has identified “a systematic process to estimate the level of improper
payments” as a critical part of the risk assessment process. In the absence of a
comprehensive method of estimating exposure to improper payments in RRA programs,
the Office of Programs’ annual studies of initial and post adjudication accuracy have
provided the basis for meeting current OMB reporting requirements on this subject.

A detailed discussion of these three error categories follows.

Errors Corrected Prior to Review

The current assessment of initial case and payment accuracy does not measure the
occurrence rate or cost of errors that have been corrected prior to the review.

Payments are selected for review from the population of initial awards. An award
represents the result of the adjudicative process as of the date that the award was
processed for payment. However, the evaluation of case and payment accuracy
considers adjustments made after the date of the initial award selected for review.

Although an initial award has been processed to payment, system edits, review referrals
and other controls continue to operate to minimize the risk that an error will occur and



                                            10

go undetected. When the assessment methodology was developed, management
wanted to consider the effect of this extended process. As a result, the current
assessment methodology does not measure the occurrence rate or monetary impact of
errors corrected between the time the initial award is processed and the time it is
subject to a quality assurance review.

As discussed earlier in this report, the treatment of errors corrected prior to the quality
assurance review is not consistent with the published scope of the study.

Errors in Temporary Work Deductions

Case and payment accuracy statistics produced by the current assessment
methodology exclude the impact of errors related to the computation of temporary work
deductions. Work deductions are imposed on individuals who return to employment
after retirement. Work deductions reduce the amount of benefits payable. The amount
of the reduction is determined by the amount of the annuitant’s post-retirement
earnings.

Temporary work deductions are imposed at the time of initial adjudication using the best
available information about the retiree’s employment. Subsequently, when final
information has been obtained, permanent work deductions will be imposed.

When the methodology was developed, management was not interested in capturing
data about errors if future correction could be anticipated. The assessment
methodology excludes these errors from the computation of case and payment
accuracy statistics because errors in the assessment of temporary work deductions
should be corrected when permanent work deductions are imposed at a later date.

Errors in the computation of temporary work deductions are not corrected until after the
annuity has been placed into pay status. Erroneous payments continue until the case
has been re-adjudicated to impose permanent work deductions. As a result, the current
assessment methodology does not measure the occurrence rate or monetary impact of
errors related to the imposition of temporary work deductions.

As discussed earlier in this report, the treatment of temporary work deductions is not
consistent with the published scope of the study.

Non-Recurring Errors

The assessment methodology used to measure the payment accuracy of decisions on
initial applications for RRA benefits includes only errors that impact the recurring benefit
payment amount.

Non-recurring errors do not impact the current benefit amount. When corrected, non-
recurring errors result in the payment of accrued benefits, or the establishment of an




                                             11

account receivable according to whether the error caused an underpayment or an
overpayment.

As a result, the cost of errors that do not impact the recurring benefit payment amount
are excluded from the projection of monetary impact.

Although the study of initial payment accuracy captures the cost of non-recurring errors
in the sample, those amounts are excluded from the projection of payment accuracy.
As a result, the current assessment methodology does not measure the monetary
impact of non-recurring payment errors.

The treatment of non-recurring errors appears to be consistent with the published scope
of the study which defines the types of errors measured by the study in terms of the
monthly annuity rate.

Recommendations

The Office of Programs should consider developing a methodology to measure the
monetary impact of errors:

   •	 that are later corrected as a result of system edits, review referrals and other
      controls (Recommendation #7);
   •	 for which later correction is anticipated, as in the case of temporary work
      deductions (Recommendation #8); and
   •   that do not affect recurring payment rates (Recommendation #9).

Management’s Response

The Office of Programs will reassess the current treatment of all three categories of
errors cited and determine whether change is feasible.


Precision Levels May Not Be Adequate

The precision levels achieved in the annual study of RRA initial case and payment
accuracy vary widely from year to year in all reporting categories, except overall case
accuracy.

One of the advantages of statistical sampling is that the results are evaluated in terms
of how far the sample estimate might deviate from the value that could be obtained by
examining 100% of the items in a population. Precision refers to a percentage or value
that quantifies the extent to which the sample results may differ from the actual
condition in the population from which the sample was drawn.




                                            12

Payment Accuracy

During our review, we observed very broad estimates of monetary impact that vary
greatly from year-to-year and some unexpected relationships among the data that may
be due to the small sizes used in the study.

For example, the FY 1999 study reported an overall loss of case accuracy when
compared with the FY 1998 study. However, the payment accuracy rate had improved
while the maximum monetary impact associated with errors had increased. We would
have expected an improvement in accuracy to be associated with a reduction in the cost
of errors.

Management has not established a target for the precision of payment accuracy
estimates. The current assessment methodology determines sample size for the
purpose of estimating overall case accuracy within a desired range of precision using
existing information about the occurrence rate of errors. The estimation of payment
accuracy within a similarly defined precision range uses a different statistical technique
and would typically result in much larger sample sizes than those used in estimating
case accuracy.

Since the study is not specifically designed to measure payment accuracy within a
desired range of precision, changes in the magnitude of financial impact from year to
year will not support inferences about the effect of changes in the processing
environment. However, the precision levels currently being achieved may be sufficient
for management’s purpose when the cost of expanding sample size is compared with
the benefit of enhanced precision.

We offer these observations for management’s consideration in developing a
comprehensive estimate of the financial impact of improper payments. A presentation
of selected case and payment accuracy statistics is presented in Appendix III.

Case Accuracy

The Office of Programs’ annual studies of case and payment accuracy are designed to
offer a basis for inferences about the accuracy of the combined population of employee,
spouse and widow/widower awards. As a result, the studies’ estimates of overall case
accuracy achieve at least the planned precision level of +/- 2.5%. However the
precision levels achieved in estimating case accuracy for each of three beneficiary
groups varies widely from year to year.

In 1999, the OIG issued a management information report, “Payment and Case
Accuracy Issues Related to the Financial Statement Audit.” 6 In that report, the OIG
noted that the statistical precision achieved by the annual study of initial case and
payment accuracy was sufficient to indicate upward and downward trends over time, but
would not support the measurement of incremental improvement from year to year.
6
    Audit Report Number 99-07, March 24, 1999



                                            13

The OIG’s finding was based on the broad precision ranges of case accuracy for the
three strata that comprise the study population. The OIG recommended that the Office
of Programs design a plan for statistical measurement of case accuracy that would
provide meaningful feedback on the effectiveness of agency case accuracy initiatives.

The Office of Programs agreed in principle with the OIG’s recommendation. However,
after extensive discussion, they requested that the recommendation be closed with a
guarantee that they would continue to focus on this area in planning for future studies.
They have done so. The sample sizes for the spouse and widow/widower beneficiary
groups were augmented to improve the precision of those strata in the FY 2001 and FY
2002 studies.

Since management is aware of the issues related to the precision of estimates of the
population subgroups and has been responsive to prior OIG recommendations, the OIG
will make no further recommendations concerning this matter at the present time. Case
accuracy estimates and precision levels resulting from the Office of Programs’ studies
of case and payment accuracy for FYs 1996 through 2001 are presented in Appendix
IV.




                                           14

                                                                             Appendix I
                                                                             Page 1 of 2

                    Study of Initial Case and Payment Accuracy
                                     Background




The following background information was excerpted from the Office of Programs FY
2000 Study of Initial Case and Payment Accuracy.

                                    ---------------------

      Purpose

      Assessment and Training, Program Evaluation/Quality Assurance (QA)
      continued the ongoing study of initial employee age and service, spouse
      and widow(er) application processing. (For the sake of simplicity,
      employee age and service and widow(er) will be referred to as employee
      and widow, respectively, through the remainder of this report.) The intent
      of the study is to document key indicators of the quality of service provided
      by the Railroad Retirement Board (RRB) in administering the Railroad
      Retirement Act (RRA). The key indicators examined in this report are
      derived from a review of a stratified random sample of initial applications
      processed in fiscal year (FY) 2000.


      Methodology

      Sample cases were reviewed to determine accuracy and compliance with
      policies and procedures. In addition, the reviews also provided
      information about causes for particular errors and other general
      information about the employee, spouse and widow claims process.

      .




                                            15

                                                                      Appendix I
                                                                      Page 2 of 2

             Study of Initial Case and Payment Accuracy
                              Background


Measurement of Case Accuracy

The case accuracy rate measures the percentage of cases that do not
contain a material error inside the sample profile. A case contains a
material error if it meets the following criteria: (1) an incorrect payment
which has accumulated to a total of $5.00 or more at the point the error is
identified by QA, (2) an incorrect payment of less than $5.00 which totals
1% or more of the monthly annuity rate, or (3) any situation in which a
non-entitled benefit is paid. Case accuracy rates reflect only those errors
which are detected as a result of reviewing award actions peformed during
the FY being studied.


Measurement of Payment Accuracy

The payment accuracy rate measures the percentage of dollars paid
correctly as a result of adjudication actions performed during the FY being
studied. For initial cases, the percentage is calculated using the dollars
paid and payable on the annuity beginning date (ABD).

                          ------------------------------




                                       16

                                                                           Appendix II

                                                                           Page 1 of 2


               Study of Initial Case and Payment Accuracy

                            Error Categories



The following background information was excerpted from documentation provided by
the Office of Programs.

                                 ------------------------------


      Material Error Inside Profile

      This is a situation in which the case contains an error relating to the
      payment of the sample award that we are reviewing. For example: we
      select initial employee case for review. We determine that the Tier 1
      calculation is incorrect from the annuity beginning date resulting in an
      incorrect monthly rate and a dollar error amount which totals more than
      $5.00. This would affect both payment and case accuracy rates.



      Material Error Outside Profile

      This is a situation in which the case contains a material error not related to
      the sample award that we are reviewing. For example: An employee and
      spouse have the same annuity beginning date. We select an initial
      employee for review. The employee Tier 2 is incorrect from his annuity
      beginning date and the accrued dollar impact is more than $5.00. Since
      the spouse annuity was paid based on the employee, her Tier 2 is also
      incorrect. The employee error is inside profile error and affects case and
      payment accuracy. The spouse is an outside profile error and does not
      affect either.




                                              17

                                                                      Appendix II
                                                                      Page 2 of 2

             Study of Initial Case and Payment Accuracy
                         Error Categories



Potential or Pending Issue

A potential error is a situation in which the case requires additional
development that could result in a material error. For example: A
discrepancy is found on several wage records in file regarding the
employee’s number of creditable military service months. We are unable
to determine the correct number of creditable military service months.
Since this can affect the employee’s annuity rate, we need a resolution
before a final determination can be made as to the existence of a material
error.


Not Material Error

This type of case generally requires additional work but does not contain a
material error. For example: There is correspondence in the file and there
is no indication of a response.


                          ------------------------------




                                       18

                                                                         Appendix III

                  Selected Case and Payment Accuracy Statistics


Presented below are selected case and payment accuracy statistics resulting from the
Office of Programs annual study of RRA initial case and payment accuracy.



                                            PROJECTED MONETARY IMPACT OF
                                                      ERRORS

                                        The total monetary value of errors in decisions
                                        on initial applications for employee, spouse
                                        and widow benefits was estimated to fall
                   OVERALL              between . .
     Fiscal     Case      Payment                                            Range
      Year    Accuracy    Accuracy          Lower           Upper            Of The
    Studied     Rate        Rate             Limit          Limit          Projection

    FY 2001       96.0%        99.89%            $65,434      $654,339         $588,905


    FY 2000       96.1%        99.87%            $30,067      $781,751         $751,684


    FY 1999       93.7%        99.68%                $0     $2,140,689       $2,140,689


    FY 1998       94.5%        99.64%            $29,966    $2,097,649       $2,067,683


    FY 1997       92.6%        99.75%            $87,808    $1,375,660       $1,287,852


    FY 1996       92.7%        99.45%           $204,577    $3,010,212       $2,805,635



See Appendix I for background information defining the terms “Case Accuracy” and
“Payment Accuracy.”


.




                                          19

                                                                             Appendix IV
                                                                              Page 1 of 2
                      Case Accuracy Estimates FY 1996 - 2001


Presented below are case accuracy statistics taken from annual reports of RRA initial
case and payment accuracy for FYs 1996 through 2001.

Employee Awards

              Sample        The true accuracy rate is      Or the Precision of the
             Accuracy              between . . .                Sample is ….
  2001          98.6%         95.8% and          100.0%           +/- 2.8%
  2000          100.0%        Not lower than 97.1%                    ----
  1999            97.3%       94.3% and         100.0%             +/- 3.0%
  1998            96.0%       92.2% and          99.8%             +/- 3.8%
  1997            96.4%       93.5% and           99.3%            +/- 2.9%
  1996            94.7%       91.1% and           98.3%            +/- 3.6%


Spouse Awards

              Sample        The true accuracy rate is      Or the Precision of the
             Accuracy              between . . .                Sample is ….
  2001          98.0%         96.0% and          100.0%           +/- 2.0%
  2000            95.6%       92.2% and           99.0%            +/- 3.4%
  1999            93.2%       88.6% and           97.8%            +/- 4.6%
  1998            93.8%       89.6% and           98.0%            +/- 4.2%
  1997            92.6%       89.0% and           96.2%            +/- 3.6%
  1996            94.1%       90.9% and           97.3%            +/- 3.2%

Widow Awards

              Sample        The true accuracy rate is      Or the Precision of the
             Accuracy              between . . .                Sample is ….
  2001          91.5%         87.6% and          95.4%            +/- 3.9%
  2000            93.7%       89.5% and           97.9%            +/- 4.2%
  1999            91.8%       87.3% and           96.3%            +/- 4.5%
  1998            94.2%       90.7% and           97.7%            +/-3.5%
  1997            90.1%       86.3% and           93.9%            +/-3.8%
  1996            90.3%       86.5% and           94.1%            +/- 3.8%



                                          20

                                                                 Appendix IV

                                                                  Page 2 of 2

                Case Accuracy Estimates FY 1996 - 2001



Overall

           Sample    The true accuracy rate is    Or the Precision of the
          Accuracy          between . . .              Sample is ….
  2001       96.0%     94.2% and          97.8%          +/- 1.8%
  2000       96.1%     94.1% and         98.1%            +/- 2.0%
  1999       93.7%     91.2% and         96.2%            +/- 2.5%
  1998       94.5%     92.3% and         96.7%            +/- 2.2%
  1997       92.6%     90.5% and         94.7%            +/- 2.1%
  1996       92.7%     90.6% and         94.8%            +/- 2.1%




                                  21

